<html>
<title> - SWITZERLAND'S LEADERSHIP OF THE OSCE</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                  SWITZERLAND'S LEADERSHIP OF THE OSCE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2014

                               __________

 Printed for the use of the Commission on Security and Cooperation in 
                                 Europe
                                 
                                 
                                 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                 



                   Available via http://www.csce.gov
                   
                   
                               __________
                               
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
95-596                   WASHINGTON : 2015
_____________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3354435c73504640475b565f431d505c5e1d">[email&#160;protected]</a>  
                  
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,
  Chairman
SHELDON WHITEHOUSE, Rhode Island
TOM UDALL, New Mexico
JEANNE SHAHEEN, New Hampshire
RICHARD BLUMENTHAL, Connecticut
ROGER WICKER, Mississippi
SAXBY CHAMBLISS, Georgia
JOHN BOOZMAN, Arkansas

                                     CHRISTOPHER SMITH, New Jersey,
                                       Co-Chairman
                                     JOSEPH PITTS, Pennsylvania
                                     ROBERT ADERHOLT, Alabama
                                     PHIL GINGREY, Georgia
                                     MICHAEL BURGESS, Texas
                                     ALCEE HASTINGS, Florida
                                     LOUISE McINTOSH SLAUGHTER,
                                      New York
                                     MIKE McINTYRE, North Carolina
                                     STEVE COHEN, Tennessee

                  SWITZERLAND'S LEADERSHIP OF THE OSCE

                              ----------                              

                           FEBRUARY 25, 2014
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Christopher Smith, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     3

                               WITNESSES

Didier Burkhalter, President of the Swiss Confederation, Foreign 
  Minister and Chairman of the OSCE..............................     6
Heidi Grau, Ambassador and Head of the OSCE Chairmanship Task 
  Force, Swiss Federal Department of Foreign Affairs.............    21

                               APPENDICES

Prepared Statement of Hon. Christopher Smith.....................    28
Prepared Statement of Didier Burkhalter..........................    30


                  SWITZERLAND'S LEADERSHIP OF THE OSCE

                              ----------                              


                           FEBRUARY 25, 2014

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 10:08 a.m. to 11:43 a.m. in Room 
562, Dirksen Senate Office Building, Washington, D.C., Senator 
Benjamin Cardin, Chairman of the Commission on Security and 
Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin Cardin, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Christopher Smith, Co-Chairman, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Didier Burkhalter, President of the 
Swiss Confederation, Foreign Minister and Chairman of the OSCE; 
and Heidi Grau, Ambassador and Head of the OSCE Chairmanship 
Task Force, Swiss Federal Department of Foreign Affairs.

                HON. BENJAMIN CARDIN, CHAIRMAN, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Cardin. Well, good morning. Welcome to the hearing of 
the Helsinki Commission. It's our great honor to have Didier 
Burkhalter with us today. He has many titles. He's the 
president of the Swiss Confederation, foreign minister--that 
you got to explain to me, how you're president and foreign 
minister--but the most important position and the reason that 
you're here today is that you're chair in office of the OSCE. 
And we thank you very much for continuing the tradition of the 
chair to come to Washington and appear before the Helsinki 
Commission.
    As I think you are aware, the Helsinki Commission in and of 
itself is a unique organization. It was created as the 
implementing arm by the Congress for our participation in the 
OSCE. It's unique because, as you know, we have separation of 
branches, but in the Helsinki Commission we have both the 
legislative and executive branch together. We have three 
members of the executive branch that serve on the Helsinki 
Commission, in addition to members of the House and the Senate.
    The chairmanship rotates. I am the chairman this year from 
the Senate, and Chris Smith, who is the chair in the House, 
will assume the chairmanship after the next elections.
    It's bipartisan. As you may know, Chairman Smith is a 
member of the Republican Party, I'm a member of the Democratic 
Party, and we work together on these foreign policy issues.
    I did see Spencer Oliver here, our secretary-general of 
OSCE Parliamentary Assembly. We are active participants in the 
Parliamentary Assembly and will want to work with you as we 
organize how all of the arms of the OSCE can work together to 
accomplish our objectives.
    I also saw Andy Baker in the audience, our special 
representative for anti-Semitism, and it's nice to have Rabbi 
Baker with us also today.
    Is Ambassador Baer, there you are, sitting in the front 
row. I was told that you were going to be here. Ambassador Baer 
is also here, our ambassador to the OSCE. It's a pleasure to 
have you here also today.
    The OSCE is now reaching its 40th birthday, and of course 
it's time to calculate how the OSCE's incredible importance 
will be elevated to the next level as we re-evaluate at 40 
where OSCE needs to deal with priorities.
    Let me just talk a moment about the priorities of the 
Helsinki Commission. Throughout its history, it has promoted 
many priorities within OSCE. We are probably best known for our 
priority on tolerance. We--Congressman Smith and I--
participated in the different conferences that were held in 
regards to anti-Semitism. We're now celebrating the 10th 
anniversary of the Berlin conference, in which I participated. 
As a result of the work of our Commission, and leadership 
around Europe, we established three special representatives, 
and Mr. Chair, I'm glad that you are continuing the tradition 
of having three representatives deal with the tolerance agenda.
    The Commission hosted the OSCE ODIHR of people of Africa 
descent conference here in Washington, D.C. We found that to be 
a logical extension of our priority for dealing with the human 
rights/tolerance agenda. And of course this Commission has 
taken a definite interest in the concerns of the Roma 
population in Europe, and we would welcome your thoughts as to 
how we can constructively work to continue to deal with the 
concerns of the Roma population.
    This Commission has taken on the issue of human 
trafficking. I want to acknowledge the incredible work of 
Chairman Smith not only here in the United States but globally 
in dealing with trafficking. As a result, we have our TIP 
reports here in the United States, which has been very valuable 
in helping us advance the end of modern-day slavery.
    This Commission has put a very high priority on good 
governance, particularly in countries in transition. Now 
there's no more dynamic example of that than the current 
circumstances in Ukraine. We had a chance to talk about that a 
few moments ago, but our first priority, of course, is to re-
establish order in Ukraine. We need to have a functioning 
government, and we need to protect the human rights of all of 
its citizens. It is where I think OSCE needs to use all of its 
tools to help bring about the proper resolution of the current 
crisis in Ukraine.
    There are too many countries that are backsliding on their 
commitments to good governance. That is why this Commission has 
put a high priority on transparency, good governance, dealing 
with corruption issues in countries, many of whom have valuable 
resources, and we have been very much committed to transparency 
in dealing with good governance and fighting all forms of 
corruption.
    I know as part of the Economic and Environmental Forum you 
will be including good governance, which I think is critically 
important. And the Helsinki framework recognizes that without 
human rights, you can't have security, and without human rights 
and security, you can't have economic and environmental 
commitment. So it's all interwoven into the fabric of the OSCE.
    This Commission is a very active participant in the 
Parliamentary Assembly. I mentioned that a little bit earlier. 
I have had the honor of being the vice president in the 
Parliamentary Assembly. Currently Robert Aderholt on our 
Commission is the vice president on the Parliamentary Assembly, 
and of course Alcee Hastings, the former chair of this 
Commission, was the president of the Parliamentary Assembly. So 
we look forward to your ideas as to how we can leverage 
parliamentarians in the work of the OSCE.
    You clearly have a very busy agenda. From the current 
crisis in Ukraine to the western Balkans to the Mediterranean 
Partnership issue, which is an area that we have paid a lot of 
attention to in this Commission, dealing with our partners and 
advancing the core values of the OSCE, our role in Afghanistan, 
Central Asia, the list goes on and on.
    So we look forward to your testimony, let me yield to 
Chairman Smith for any opening comments that he would like to 
make.

             HON. CHRISTOPHER SMITH, CO-CHAIRMAN, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Smith. Mr. Chairman, thank you for calling this very 
important meeting of the Commission and to welcome President 
Burkhalter to this important Commission on Security and 
Cooperation in Europe. I've been on it now for 32 of my 34 
years as a member of Congress and it has been an oasis of 
action, of commitment to ensuring that human rights are 
robustly defended.
    And I look out at Spencer Oliver during some of the worst 
days of the Soviet Union in the 1980s, when we were working on 
behalf of Soviet Jewish refuseniks and so many others who are 
were incarcerated because of their faith or their identity 
simply as Jews. And he has done yeoman's work and outstanding 
work for years at the Parliamentary Assembly. He is a walking 
institutional memory. So it is so encouraging and it's always a 
delight to see him here. So thank you, Spencer, for your work.
    Mr. President, just let me say a couple of opening 
comments. Obviously Ukraine is at the top of the OSCE's agenda 
today, and there the task is absolutely enormous. The situation 
remains very fragile, as we all know, and the Crimea could 
become a significant hot spot.
    I was in the Republic of Georgia a week after the Russians 
rolled into Abkhazia and South Ossetia regions. I was in 
Tbilisi. The tanks kept making feinting moves, where they would 
come in as if they were going into Tbilisi. Our embassy was 
evacuated. And there was a sense that they weren't going to 
stop at the borders. And obviously to this day we all have 
recognized that that was a profoundly unjust invasion. And as 
it has been unfortunately not rolled back--but all of us are 
concerned that a similar pretext might be used, given the right 
set of circumstances, for the Russians to make a move on the 
Crimea.
    I'm very concerned that the United States and Europe need 
to work closely with the Russians and supporting the Ukrainians 
and implementing the six-point agreement. And I want to 
especially thank the European Union for its leadership on that. 
The three foreign ministers, including Foreign Minister 
Sikorski, the German and French did a wonderful job in what 
could have far worse had they not intervened at that precise 
moment where the tipping point had been reached and large 
numbers of casualties over and above the wounded and the dead 
might have occurred.
    Ukraine obviously is a sovereign country, but at the same 
time Russia clearly means to play a role in the coming months. 
We have to obviously factor that into all things related to 
Ukraine. And we need to continue working to protect Ukraine's 
sovereignty, its borders, and to ensure that matriculates into 
a more robust democracy. And we will have to engage meaningful 
and, I believe, respectfully with the Russians as well.
    Our government has not done all that well in recent years. 
I hope that the OSCE will continue its work. It seems to me 
that the OSCE is a place where all parties could meet to 
support the six-point agreement. The OSCE, as a consensus 
organization founded to ensure respect for borders, through a 
concept of security that embraces human rights and the rule of 
law, will play a very significant role. And of course with you, 
Mr. President, at the helm, we have every reason to have hope 
and expectation that it will play that role and do it well.
    Reconciliation should be at the top of the agenda. Yes, 
there needs to be justice. Those who have committed atrocities 
need to be held to account. But there needs to be also a 
reconciliation agenda. If reconciliation becomes the order of 
the day, as it did in South Africa after its decades of 
apartheid and the killings and the tortures went on in their 
prisons, as they happened in El Salvador with the FMLN and with 
the government that was in place, surely we need to be 
promoting a reconciliation agenda as well for the Ukraine.
    I do believe this is a serious test for our organization. 
So again, I welcome your appointment, Mr. President, of a 
personal envoy on Ukraine, and look forward to discussing the 
role you envision for the envoy and the organization, including 
the observing of the May elections. And frankly, I hope that I 
and others will be able to become part of an election 
monitoring team for the May 25th elections.
    It will be important as well to vigorously implement the 
addendum to the OSCE action plan on combating trafficking in 
human beings, which was adopted at the Kiev ministerial in 
December. The addendum, as you know, raises some issues that I 
had raised in supplementary items that were passed by the OSCE 
Parliamentary Assembly. These included calling on corporations 
to ensure that their supply chains do not include trafficked 
labor, focusing on anti-trafficking efforts on vulnerable 
groups like the Roma, increasing cooperation among law 
enforcement in different countries to prevent sex tourism, 
involving the trafficking of minors and calling for anti-
trafficking training for the transportation of hospitality 
industries.
    I would note parenthetically, New Jersey just served as the 
host for the Super Bowl. Well, I have to tell you, New York and 
New Jersey engaged in a very cooperative but very aggressive 
plan of prevention, and as a direct result, whether it be 
social media, training--not hospital--hotel workers to spot 
trafficking and to call police hotlines, many what would have 
been trafficking situations were mitigated. About 45 pimps and 
associates were arrested. Seventy victims totally were 
identified and rescued, 25 of whom were children, minors who 
otherwise would have been sexually exploited.
    And actually, the police--state police and all other local 
police--really got into the social media side, whether it be 
Backpage and some of the other areas where they're selling 
women right online. And they intercepted it and obviously 
warned everyone, we're watching and we're going to arrest. I 
was with our New Jersey attorney general just a week and a half 
ago for an after action report. We worked with them throughout 
the whole deal. And, frankly, they did an incredible job.
    And they did all kinds of training. They worked for months. 
And now they're going to sustain that effort because the Super 
Bowl is gone. Trafficking continues and I think they'll do much 
more. Lessons could be learned for all of us for that, because 
when we apply resources to make it a priority, little children 
and young women do not get raped and exploited by the 
traffickers and by the Johns who exploit them.
    Another issue of deep concern for the Commission obviously 
is anti-Semitism, and it has been for many years. I would note 
parenthetically, my first trip to the Soviet Union was in '82 
with the National Conference on Soviet Jewry. We met with 
Sharansky's mother in Moscow. We met with refuseniks in 
Leningrad. And I'll never forget how dire their situations 
were. We've been working on it as a Commission ever since to 
make combating anti-Semitism the highest priority.
    And Rabbi Andy Baker, thank you for continuing his 
extraordinary service and methodically talking to governments, 
putting on paper as well as in recommendations what the true 
status of any country's record is on anti-Semitism, to try to 
make a difference on that. Obviously it's Berlin plus 10. We 
need to look at it. It doesn't mean we need a whole lot of new 
ideas. We need to implement and implement and implement that 
with maybe some new ideas that might come forward.
    Let me also just say that--without objection I would like 
my full statement to be made a part of the record, Mr. 
Chairman. The last thing I'd like to mention is on the freedom 
of religion issue. Last June I chaired a hearing on the Syrians 
and the fact that so many Syrian Christians are being targeted 
simply because they're Christians. And we had people come and 
testify that said, it is genocide. Christians are not being 
killed as collateral damage or because they happen to be in the 
wrong place at the wrong time, but many of the rebels 
especially infiltrated by al-Qaida, as we all know, and al-
Nusra, has been targeting Christians because they're Christians 
and killing them because they're Christians.
    And I would hope that there would be an increased emphasis 
on this growing intolerance. The hearing we just had was about 
how persecution against Christians are the worst in the whole 
world, particularly in Asia, in China, North Korea and in other 
parts of Asia, and certainly in the Middle East and many of our 
partner countries there, and even in some of the mainstream and 
mature democracies of the European Union.
    I was in Jos, Nigeria last September; spent several days in 
Nigeria pushing against Boko Haram, which we all know is a 
horrific offshoot of al-Qaida. And they do terrible things just 
like the other offshoots have done, including al-Shabab in 
Somalia. This morning a number of people in university men, 40 
is the estimation, were slaughtered, throats were slit.
    Well, I met with a man while I was in Jos because they have 
firebombed so many churches there. And of course Nigeria is not 
an OSCE country or even a partner country but is part of a 
global trend of gross intolerance on the part of radical 
Islamists. And this man, who came--I met him. He was a survivor 
of a bombing. They came to his house, put an AK-47 to his jaw 
and said: You will renounce Jesus Christ and become a Muslim or 
we shoot you. And he said: I'm ready to meet my Maker. I will 
not renounce my Lord. And they shot him, right to his jaw. 
Obviously he's had some serious reconstructive surgery. He 
survived.
    And I invited him and he came and testified. And he said, 
you Americans underestimate the vehemence and the hatred and 
the prejudice and the bias that this people bear Christians, 
and unfortunately much of the diaspora, particularly out in the 
Middle East, that carries some of those extremist views has 
made its way into many of the OSCE countries. So I would 
respectfully ask that there be a really robust look at that 
during your chair in office.
    Thank you for coming and thank you for your leadership. 
And, Mr. Chairman, thank you.
    Mr. Cardin. All members' opening statements will be made 
part of the record without objection, including the president's 
statement will be made part of our record.
    Mr. President, again, it's a pleasure to have you here. We 
acknowledge the members of the embassy. Your ambassador is 
here. He's a good friend and does a great job for you here in 
our country. You may proceed as you wish.

   DIDIER BURKHALTER, PRESIDENT OF THE SWISS CONFEDERATION, 
           FOREIGN MINISTER AND CHAIRMAN OF THE OSCE

    Mr. Burkhalter. Thank you very much, Mr. Chairman, Mr. Co-
Chairman, ladies and gentlemen. Let me start by answering your 
question you asked at the beginning of your introduction, how 
it was possible that I was president of the confederation and 
at the same time minister of foreign affairs? Frankly speaking, 
Mr. Chairman, it happened during the last two months that I 
asked myself the same question.
    Actually, and paradoxically, this is a result of the 
willingness of our nation to chair the board. We are seven 
members in the government. There is a rotation for the 
presidency each year. Every year there is a new president. In 
the government seven members but all main parties are 
integrated. The idea is to share or to integrate the main 
parties to the responsibilities. And the fact that we don't 
have any presidents that last more than one year, it is a way 
to feel integrated for all parties, all great tendencies in the 
politics in Switzerland to feel integrated. And this is also an 
expression of a consensus. And I will speak to the consensus 
and the framework of the OSCE, which is something that works to 
some extent like the Swiss Confederation.
    Thank you once more for the invitation to speak before your 
Commission. It's my very first time in Washington in my whole 
life, and a very nice city, I must say. And I feel it as a 
privilege to discuss with you and also with Vice President Joe 
Biden later on this day. It's a great honor. It's also an honor 
and a pleasure for me to address the issue of security and of 
Europe and security in particular. Over the past 100 years, 
United States has played a vital role in defending the values 
of liberty and security in Europe, and I wish to start by 
acknowledging this role. And let me maybe, Mr. Chairman, give 
you a personal story.
    I have three sons, and my wife and I, we wanted to give 
them a taste of liberty--not liberty for fun but liberty for 
people, liberty for the societies where we live. And we wanted 
to do that very early, and they were teenagers. And we decided 
to move to Normandy to Omaha Beach, and to the American 
cemetery of Omaha Beach, to the sea and the beach of Omaha. And 
I'm convinced that my sons won't forget during their whole life 
what they saw, the courage they felt, the courage and the sense 
of liberty of the young Americans that were fighting and they 
were falling for another continent, for Europe. And I just 
would like to start to say thank you.
    Coming again to the time being, the tragic developments in 
Ukraine in recent weeks have been sobering reminders that 
security in Europe cannot be taken for granted. These 
developments have also revealed the need to force a dialogue to 
rebuild trust, to reaffirm shared norms, and to consolidate 
bridges across the Euro-Atlantic and Eurasian region. It is my 
firm conviction that the OSCE has a major role to play in this 
regard to build bridges, building bridges between East and West 
for the benefit of everyone.
    The Swiss chairmanship wishes also to acknowledge the 
important role the Helsinki Commission plays within the OSCE. 
We also appreciate the close cooperation with the U.S. 
Department of State on a wide range of OSCE issues. United 
States is a crucial participant in the OSCE, the biggest 
contributor to its budget, which is a modest one. I will come 
back to that. And in many ways the U.S. is indispensable to 
move the OSCE forward.
    Switzerland has agreed to take the helm of the OSCE. Why? I 
should say first, strategic reasons. First of all, promotion of 
stability in Europe and beyond is a priority of our foreign 
policy. We have a new strategy for 2012 to 2015, but we aim to 
2022. By the way, it will be the year where we will apply for a 
first-time seat in the Security Council. But we have the idea 
to have really this security issue as a main priority for 10 
years.
    We also believe that we have something to offer: the 
neutral country. I know that neutrality is not really very 
well-understood in the States, but we think there is a place 
and an importance for a neutral country with a tradition of 
good offices and mediation.
    The third reason, that the United States and a number of 
other countries asked us to take on this role. Actually we were 
not candidate at the beginning, and then it was a problem with 
Serbia, and in line with this problematic of Serbia being 
candidate for 2014, there was this idea to have a package or a 
situation with two consecutive chairmanships working together. 
And I therefore very much count on your valuable support. You 
supported us for taking up this chairmanship-in-office; you 
should support us as we have met our responsibilities. Above 
all, I'd like you to support our priorities.
    Therefore, let me make some general remarks about the OSCE 
and the priorities of the Swiss chairmanship. First point, I'd 
like to underline that the OSCE is very important to us, 
simply. The fact that Switzerland is the first country to chair 
the OSCE for the second time indicates that we attach great 
importance to this organization. We value the OSCE as a forum 
for dialogue, a platform, a platform to generate and assist 
implementation of common norms and a field-based organization.
    We also acknowledge that the OSCE performs its many 
important tasks with a surprisingly low budget. Its annual 
budget is not much higher than the transfer fees paid for one 
top-class soccer player, 145 million euro. I mean, if I 
calculate well, that's something like $470 million. It's not 
very high for an organization with 57 member states. 11 partner 
states, four institutions, specialized, 16 field missions from 
Bosnia to Kyrgyzstan; $170 million, it is 15 times less than 
the yearly expenditure of my country for the international 
cooperation.
    That said, the OSCE is currently not in a position to tap 
its full potential. The fact that its membership spans three 
continents is a key asset, which is also a major challenge for 
decision-making. This is why, as chairperson-in-office, I 
encourage all participating states to approach the OSCE in a 
spirit of cooperation and compromise.
    You cannot progress, Mr. Chairman, if you just want to 
affirm and maximize your national position. You need the spirit 
of consensus. And it is something like Swissness. In 
Switzerland we are used to look for this consensus, as I said 
at the beginning. If we want the OSCE to move forward, we need 
to be both principled and pragmatic--principled in the sense 
that we should all stand up for our shared values and our 
commitments in the OSCE, and pragmatic because no participating 
state will be able to see its objectives in the OSCE realized 
if it ignores the priorities and needs of others.
    Let's remind us, in the mid-'70s the CSCE, at that time, 
was a success. Why? Because participants made compromises and 
tradeoffs across the three baskets--political-military, 
environmental, economic and human. And today I strongly believe 
that if all participating states engage with a balanced 
approach among the OSCE's three dimensions, we will find much 
common ground.
    The OSCE's comprehensive approach to security is a key 
asset of the organization and corresponds to today's security 
needs. Making full use of this holistic approach, of this 
integrated security approach, will make it possible to increase 
the level of security not just of states but also of citizens, 
and that's what precisely we Swiss want. As you are well aware 
as senators and members of Congress, your citizens are no 
longer primarily concerned about traditional military threats. 
The OSCE's security approach is very much consistent with a 
broader security perception.
    This is all the more important because the future relevance 
of the OSCE will much depend on its ability to produce tangible 
results for the individuals and communities of its 
participating states. Good politics, after all, is a service of 
the people. And like Abraham Lincoln said, I could add, by the 
people, for the people. This is why the leitmotif of the Swiss 
chairmanship is to create a security community for the benefit 
of everyone.
    Calling for pragmatism does not mean that we should shy 
away from criticism in the OSCE. Recalling the OSCE's 
principles is more vital today than ever, especially when 
adherence to these principles is uncertain. I therefore 
encourage participating states to engage with each other in 
constructive ways to pave the way for shared solution rather 
than alienation. With its consensus-oriented political system 
and linguistic diversity, Switzerland is a kind of mini-OSCE. 
Based on our own experience, we seek to revitalize the OSCE's 
culture of dialogue by calling on all participants to take a 
step towards one another. We encourage all states to make 
gesture of good will, to rebuild trust and allow for progress 
within the OSCE.
    Since assuming the chairmanship of the OSCE at the 
beginning of 2014, my agenda has been dominated by something 
which was not on the program. It was dominated by the political 
crisis and recent escalation of violence in Ukraine. During the 
past weeks, I have repeatedly called on all sides to refrain 
from violence, to resolve the crisis through dialogue and 
political means and respect human rights. In a series of 
meetings, I have discussed options for OSCE assistance with the 
then-Ukrainian government as well as with members of the 
opposition. The agreement reached on February 21st, you 
mentioned beforehand, marked an important step towards ending 
the violence and paved the way for a political solution of the 
crisis. I congratulate everyone involved who made these 
breakthroughs possible--like you said, the Polish chairman and 
French foreign minister and the special envoy of the Russian 
Federation.
    With the appointment of an interim president by the 
parliament, Ukraine has now entered a new phase. It is now a 
new phase, a transition. Formidable challenges lie ahead. We 
should unite in our effort to support Ukraine in these 
difficult times. A stable, democratic and a united Ukraine is 
in the interest of all.
    Against this background, I proposed yesterday during my 
briefing at the U.N. Security Council to establish an 
international contact group on Ukraine. Ukraine should, of 
course, play a prominent role in the group, and all 
international key actors should be included. We are currently 
consulting with the idea with all actors concerned.
    The main task of the proposed contact group would be to 
support Ukraine in its transition period. The contact group 
would serve as a platform for coordination and sharing 
information on international assistance and project activities 
in Ukraine. The OSCE, through its impartiality and inclusivity, 
has the necessary attribute to host and moderate this group. 
Ukraine and all international actors involved in this crisis 
are, in fact, participating states of the OSCE.
    I also announced yesterday my decision to appoint 
Ambassador Tim Guldimann as my personal envoy to Ukraine. He 
will coordinate all ongoing and planned activities of the OSCE 
in Ukraine on behalf of the chairmanship. He will rapidly take 
consultation with all sides and will cooperate closely with 
international partners.
    A small OSCE core team has been sent also to Ukraine to 
conduct a needs assessment mission. There is an urgent need to 
rebuild trust among all parties involved. As I underlined 
yesterday at the U.N., I encourage the new leaders of Ukraine 
to invite ODIHR to send a human rights assessment mission to 
the country to establish the facts and circumstances of the 
incidents that took place in Ukraine. The human rights 
assessment mission would recommend measures to deal with 
serious violation of human rights allegedly committed during 
this crisis. Its findings would be presented in a report and 
would help advance national reconciliation in Ukraine.
    Presidential elections will be a crucial moment in this 
current transitional period. We expect the Ukrainian 
authorities to issue an early invitation for an ODIHR election 
observation mission in view of the rapidly changing 
developments. We are also ready to review and further specify 
the activities of the OSCE's project coordinator's office, 
which is in Kiev.
    We are currently witnessing a phase of de-escalation in 
Ukraine. It is essential to support a fair and an inclusive 
process of transition which does not marginalize any part of 
Ukraine or any community. Ukraine deserves full international 
attention and support. I'm convinced that the OSCE has the 
necessary tools to assist Ukraine in this difficult phase.
    Let's move to Afghanistan, Mr. Chairman. Afghanistan is one 
of the OSCE's six Asian partners. It is another hot spot where 
the OSCE can play a valuable role. While the international 
community develops a strategic vision for Afghanistan after 
2014, the OSCE remains a good platform for practical, forward-
looking regional cooperation and dialogue among all 
stakeholders. We continue to work closely with other 
international actors to ensure stability in Afghanistan and the 
wider region, at least to contribute to.
    OSCE activities worth mentioning in this context are police 
training, borders and customs training and counternarcotics. 
Our Central Asian field offices, the OSCE Academy in Bishkek, 
Kyrgyzstan, and the Border Management Staff College in 
Dushanbe, Tajikistan, are building local capacities and expert 
networks linking Afghanistan and the Central Asian states. We 
are currently also working towards establishing an OSCE 
research center on Afghan-Central Asian issues. In addition, 
ODIHR will send an election support team to Afghanistan to 
assist with preparation of the Afghan elections this year, and 
it will be, by the way, the fifth time that ODIHR will work 
there.
    And let me now submit an idea for Asia-Pacific, for this 
region, Asia-Pacific. With Switzerland chairing the Asian 
Partner for Cooperation next year, we are eager to discuss 
ideas of applying elements of the OSCE's cooperative security 
model to East Asia. Against the background of unresolved 
territorial disputes, rapidly rising defense budget and growing 
risks of political polarization, East Asia could well benefit 
from the OSCE's experience in creating confidence and common 
norms through dialogue and transparency. That should be 
interesting for members of the U.S. Congress. The zone Asia-
Pacific is an economic motor and integrated region for economic 
reasons. But nothing or almost nothing happened at the level of 
subregional security platform. And I submitted this idea this 
year to the heads of state of South Korea and Japan, and we 
will see if it is possible to invent or to see something 
growing next year.
    Ladies and gentlemen, now I would like to go over the 
chairmanship in office 2014 and to outline the priorities of 
the Swiss chairmanship. You can see in our tableau, which is a 
summary, in one page, one-page summary, it's something very 
rare in the politics, and we try to do that because that give a 
clear picture of what we want in a nutshell.
    First, the big picture. Precisely, the Swiss chairmanship 
has set three other objectives. We seek to contribute to 
fostering security and stability, to improving people's life 
and to strengthening the OSCE's capacity to act. In a nutshell, 
our mission is to enhance security, freedom and responsibility. 
These three values--also Swiss and American values, in the 
Constitution--these three values are important, and the 
objectives, main objectives, they stem from these values. For 
each of our values and objectives, we have defined a number of 
priority areas. You have also received a fact sheet on these 
priorities, and I would like to highlight a few points here.
    With regard to our first objective of fostering security 
and stability, the Western Balkans figures prominently on our 
agenda. My special representative for the Western Balkans, 
Ambassador Stoudmann, a former head of ODIHR, has been tasked 
with facilitating regional cooperation and reconciliation.
    I plan to visit this region in the coming months. The OSCE 
should play a supporting role in the implementation of the 
Belgrade-Pristina agreement. Indeed, the OSCE has recently 
facilitated local elections in northern Kosovo and will 
continue to monitor this year's electoral processes in 
southeastern Europe.
    Let me add that we have arranged with Serbia, the next 
chairmanship in office, that Ambassador Stoudmann will be 
reappointed next year, will be so a Swiss ambassador and 
special representative for the Western Balkans during the 
Serbian presidency in 2015.
    I'm also planning to travel to the South Caucasus. My 
special representative for this region, Ambassador Gnadinger, 
who will also be reappointed next year by the Serbian 
presidency, is co-chairing the Geneva international discussions 
on the conflict in Georgia. His discussions are a unique, 
albeit fragile, platform to tackle the security and 
humanitarian aspects of the conflict. It is our hope that they 
will one day evolve into a forum that lays the grounds for a 
real settlement of the conflict.
    Nagorno-Karabakh is one of the most dangerous conflicts in 
Europe. One of my first meeting as chairman in office was with 
the three co-chairs of the Minsk Group. I wish to emphasize 
that this bond, both in Karabakh and in Georgia, United States 
involvement at the highest political level would be helpful for 
our efforts. I'm convinced that the stalemate in these 
protracted conflicts can only be overcome with greater 
engagement and attention by international key players such as 
the United States. We very much appreciate the work of 
Ambassador Warlick, U.S. co-chair of the OSCE Minsk Group, and 
of Deputy Assistant Secretary Eric Rubin, the U.S. 
representative in the Geneva discussion.
    Conventional arms control, Mr. Chairman, and confidence and 
security building measures play a key role in joint efforts to 
strengthen military stability, transparency and predictability 
in this OSCE area. Yet while the need for conventional arms 
control remains undisputed, the Treaty on Conventional Arms 
Forces in Europe has reached an impasse. Conventional arms 
control in Europe can likely only be relaunched on the basis of 
a new conceptual approach. This will require many countries to 
modify long-held positions. We should also seek ways to ensure 
that unresolved territorial conflict do not block progress on 
banning regional arms control. All this will require initiative 
and leadership by the United States. The Swiss chairmanship 
regards the OSCE as a useful marketplace for ideas on 
conventional arms control. We are ready to facilitate 
conceptual discussion in this respect.
    These were, Mr. Chairman, Mr. Co-Chairman, some comments 
about the first column on our tableau. Let's move now to the 
second.
    As for our second objective of improving people's lives, 
implementation of all existing commitments in the human 
dimension is a key priority for us. As the co-chairman just 
said before, implementation, implementation, and 
implementation. We have defied and prepared our activities in 
this area on the basis of our two years' experience as chair of 
the human dimension committee. We aim to strengthen the 
implementation of commitments in full cooperation with the 
participating states, with the OSCE structures and with the 
civil society. So our focus is not in having new commitments, 
our focus is clearly about respecting the current commitment, 
giving assistance to member states for monitoring and improving 
the situation.
    Switzerland will host a chairmanship event on human rights 
defenders in Berne, our capital, in June. On this occasion, the 
director of ODIHR, Ambassador Lenarcic, will present guidelines 
prepared by ODIHR on the protection of human rights defenders. 
I should add I visited ODIHR in Warsaw at the end of January 
and that recruiting a successor for Mr. Lenarcic will be 
another major task in 2014. We now have had the application 
time till the 6th of February. We have four candidates. A good 
situation is possible. We have candidate from Germany, from 
Latvia, from Czech Republic and from Iceland.
    The Swiss chairmanship will also put the issue of torture 
back on the agenda of the OSCE. We are planning an event on 
torture prevention in Vienna at the beginning of April. 
Cooperation between national mechanisms, NGOs, persons, 
international organizations, the U.N. and the OSCE will be at 
the center of the discussions at this event. Preventing of 
torture will be clearly a priority for respecting the 
commitment precisely.
    Another theme, the fight against human trafficking, 
hundreds of thousands of people, mainly women and children, are 
being forcefully trafficked in their own countries and across 
national borders. These victims are often sexually exploited or 
forced into slavery. This is a terrible crime. And I wish to 
commend Co-Chair Smith for the three comprehensive bills you 
authored in the United States to combat trafficking to help 
victims.
    A week ago, the Swiss OSCE chairmanship together with the 
Austrian chairmanship of the Council of Europe organized a 
conference against trafficking human beings. The goal was to 
discuss how legally binding standards, monitoring mechanisms 
and political strategies can mutually reinforce each other and 
lead to effective action to counter trafficking in human 
beings. It was a success with a lot of participants and a 
strong testament that human trafficking remains on the top of 
the agenda.
    As for the priority of more reliable management of natural 
disasters, this is very much in the interest of the security 
and safety of our citizens. Disasters can hit anywhere at any 
time. And the United States knows from its own experience that 
the scale, frequency and severity of disasters triggered by 
natural hazard will continue to grow at an accelerating pace. 
Senator Cardin, Congressman Smith, you witnessed with your own 
eyes the destructive force of Tropical Cyclone Sandy in October 
2012. You visited the impacted areas on Maryland's Eastern 
Shore and New Jersey, where over 30 of your compatriots lost 
their lives and where 357 housing units were damaged, causing 
economic losses of well over $30 billion.
    Switzerland considers that disaster risk reduction should 
be firmly embedded in the sustainable development goals. Our 
aim must be to move from a disaster response to a disaster 
prevention and climate change mitigation. There is a lot on our 
plate for that. We'll address this issue at the meetings of the 
second OSCE economic and environmental forum. In so doing, we 
seek to contribute to societies becoming resilient to climate 
change and disaster risk.
    There is also a strong link between the human the 
political-military dimensions of the OSCE in combatting 
transnational threats. For instance, this year we are tackling 
issues such as human rights in countering terrorism, kidnapping 
for ransom that we have to fight against at an international 
level, and the return of foreign fighters, which could become a 
major issue after the Syrian conflict.
    A major opportunity to do so will be the annual OSCE 
conference on counterterrorism, which will take place in 
Interlaken in my country. We are counting on the presence of 
American experience at the Interlaken conference and on your 
continued support in tackling these issues. And I would be 
interested to have your point of view about these topics of 
counterterrorism, kidnapping for ransom, return of foreign 
fighters in the discussion after on--later on.
    In the area of cyberthreats, the Swiss chairmanship will 
focus on the implementation of the initial set of OSCE 
confidence-building measures agreed last year. And at that 
place I would like to acknowledge the successful work of the 
U.S. chair of Ambassador Baer. Thank you very much for having 
worked very efficiently, U.S. chair of the informal working 
group. The Swiss chairmanship is grateful that the United 
States accepted to continue to chair this working group and 
will support its efforts to develop additional confidence-
building measures. Let me also add that we will hold an OSCE-
wide conference on drugs in October in Vienna.
    And now, regarding our third objective of strengthening the 
OSCE's capacity to act, the Helsinki +40 process is of 
particular importance. Adapting the OSCE to the security needs 
of the 21st century is both challenging and vital. This process 
is in itself an important confidence-building measure if it 
helps address divergent security perspective in a result-
oriented manner. But it should be more than that, as Helsinki 
+40 is about defining the ways and means of the OSCE, and hence 
its future relevance. There are no road maps. There are also 
aid coordinators in place to structure these discussions in 
Vienna. Again, participating state will need to show a degree 
of flexibility for this process to translate into meaningful 
results.
    I also believe that we need ministerial level debates to 
get the solid idea of where the OSCE should be heading. 
Numerous issues are being addressed in the context of Helsinki 
+40. Let me mention here one issue where the Swiss chairmanship 
would particularly appreciate your support, U.S. support. I'm 
referring to the need to improve the effectiveness of OSCE 
field operations. These field operations have proven very 
valuable in assisting host countries in implementing their 
commitments. But they have increasingly come under pressure in 
a number of countries, the fact that we cannot maintain field 
operation with far-reaching mandates against a will of host 
countries. This is why it is important to achieve a balance of 
OSCE activities that takes into account the interest of the 
host state. Support for the United States for this discussion 
will have to carry them forward. For instance, we can move here 
or there from a specifically third basket mission to a more 
balanced mission with element of the second basket.
    As for the other means of rendering the OSCE more 
effective, I would argue that the model of consecutive 
chairmanship, as carried out by Switzerland and Serbia, has 
already proven its merit. Berne and Belgrade have developed 
joint work and implementation plans. We have also agreed that 
our special representative would be reappointed by the end of 
this year. As I said, consecutive chairmanship can provide the 
OSCE with more continuity for the future, and support of the 
U.S. would be welcome.
    Linked to the Helsinki +40 debates is the Swiss priority of 
strengthening the OSCE's role in mediation. The peaceful 
settlement of disputes that was included in the Helsinki final 
act remains one of the core tasks of the OSCE today. This is 
why we are contributing to the mediation support capacity that 
is currently being built in the OSCE secretariat. The aim is to 
capture knowledge about mediation processes and make sure that 
OSCE mediators are supported with training and expertise. In 
this regard, I wish to acknowledge the important assistance 
provided by the United States Institute of Peace and the 
Conflict Management program at the Johns Hopkins School of 
Advanced International Studies.
    The Swiss Chairmanship attaches great importance to our 
final priority of enhancing involvement of civil society and in 
particular of young people. Young people are also the main 
priority of the presidency of Switzerland this year. We firmly 
believe that offering a platform for a dialogue with civil 
society contributes to assisting OSCE institution in 
participating states in implementing commitments.
    It also provides an opportunity for our governments to 
listen and to respond to the needs of our citizen once more, by 
the people, for the people. Four original workshops are being 
organized in four different regions of the OSCE in the coming 
months. The first workshop is recently taking place these days 
in Belgrade. The two topics identified by civil society at the 
most pressing issue were torture prevention and hate crime and 
hate speech, the latter with a particular focus on Roma and 
Sinti.
    It was an inspiring start to our workshop series, and the 
next destinations for this workshop being Austria, Tajikistan 
and Georgia The recommendations resulting from this process 
should feed into the final (city ?) society conference that 
will be held in parallel to the Minister Council in Basel in 
December 2014, this year.
    Finally, there is something very important in our 
chairmanship--our use of Security and Cooperation in Europe 
Project, which brings together 57 young people from all 57 OSCE 
participating states. The project is particularly dear to me as 
our shared responsibility as politicians is to shape a more 
prosperous, equitable and sustainable future for the generation 
to come.
    In the course of this year, our youth ambassadors will 
simulate a whole OSCE negotiation cycle, last month 
assimilating for the first time a permanent council meeting in 
Vienna. I also invited three of these youth ambassadors to 
already address the real permanent council that met in the 
Hofburg Palace in Vienna. There were applause for them, and 
it's the very beginning of their work.
    In July, a ministerial council meeting will be simulated in 
Belgrade. The purpose of these meetings is to negotiate a youth 
action plan with recommendation for the OSCE and its 
participating states. The youth ambassadors will present their 
action plan at the ministerial council in Basel; it will be 
supportive, which I hope will serve as an inspiration for the 
OSCE to work out its own action plan for youth next year.
    Mr. Chair, ladies and gentlemen, let me conclude my 
statement by a great thanks to you, thanks to the United States 
for your continued commitment to the OSCE, of an institution 
complementary to NATO. The OSCE constitutes America's second 
foothold in Europe. It is a bridge between the Euro-Atlantic 
and the Eurasian region. The stronger the bridge, the stronger 
our common security. Thank you very much for your support.
    Mr. Cardin. Well, Mr. President, thank you for your very 
comprehensive outline of your priorities for chair and office. 
As you were explaining the dual role you hold as president and 
minister, I first thought that was just a budget-saving matter 
for your country but now with your explanation, I fully 
appreciate that.
    And you for a one-page summary. That does help us. You're 
right; our attention spans cannot take too much more than that. 
But that's--I appreciate the conciseness of the priorities that 
you have spelled out here. And I agree with your title--
``Principled and Pragmatic.'' That's OSCE--a consensus 
organization. You need to be able to bring about consensus 
among very different countries. That requires pragmatism, but 
OSCE is built upon principle, and principles are very 
important.
    So let me challenge you on how you are going to proceed 
under that banner as it relates to Ukraine, recognizing that 
Russia will play a very important role. The United States and 
the international community has been working with Russia and 
Syria with some success, although it's been a challenge to 
maintain our principles, recognizing the need to get broader 
support. How do you see the future of the Ukraine as an 
independent country, recognizing the role that Russia is 
currently playing?
    Mr. Burkhalter. You always find a lot of people saying that 
is not possible for making summary in one page, but I think it 
is always possible to go to the essential, and politics is also 
to find a way to go the essential. About your second comments 
and questions, we have to be principled and pragmatic, and the 
question is, are we able to find not only balance but a common 
balance between principled and pragmatic? Because we have to be 
principled and pragmatic together. And there is another 
conception of being principled and pragmatic in all the 
countries of the OSCE.
    With Russia, we tried to build on the good relations we 
have developed from my country, not as chair of the OSCE but 
from my country with Russia. In the last years, we have to have 
a lot of contacts, because we had to assume or achieve the 
mediation for helping Russia to become a member of the WTO.
    And this gave the possibility to build a relation and to 
build a dialogue in a lot of issues with Russia, and therefore, 
we think that we can give help and be helpful in this difficult 
situation for finding a solution in a political--an inclusive 
solution, which will be very difficult in Ukraine with a 
dialogue with Russia and not without that dialogue with Russia, 
because we are strongly convinced that there will be no solid 
and lasting solution if we don't find it with the main actors, 
and with Russia in particular.
    Mr. Cardin. Well, I thank you for that. They make decisions 
a lot quicker than we do in Vienna. So you might want to get 
some suggestions on how consensus can move towards decision-
making from our young people. They might help us in that 
regard.
    You mentioned that your country was willing to step in and 
take on the leadership of OSCE. It's the second time and the 
first country to take on the burden for a second time, 
recognizing that Serbia was one year from becoming the chair in 
office, and we do have representatives of the Serbian embassy 
here with us today, and we thank them for being here.
    It seems to me it does present a unique opportunity with 
your priority on the Western Balkans and the agreements that 
key people from OSCE will remain in for the two-year period. 
Can you just expand a little bit more as to how we can move 
forward during your chairmanship and transition to Serbia, 
which will have a unique opportunity to demonstrate 
statesmanship in dealing with long-time problems?
    Bosnia, by now, we thought we'd be at the next plateau, and 
we're not. We're still under an interim government structure 
that everyone understands will need some constitutional reform 
for their ability to transition fully into Europe. Kosovo is 
still not resolved. How do you see your chairmanship working 
with the Serbian government next year to be able to make 
significant progress on the Western Balkans?
    Mr. Burkhalter. First of all, I would like to add something 
I didn't say before during my intervention, that we will have 
the Swiss ambassadors reappointed, but we will also have a 
Serbian ambassador as special representative reappointed; it is 
for the Transnistrian conflict. That shows, really, that we 
work totally together in order to find the best ways to ensure 
this continuity, and also, the implementation of the joint 
action plan--we decided to move together.
    About the Western Balkans--as I said, we have three main 
priorities. First of all, regional cooperation--and we will 
work in the frame of the Regional Cooperation Council as well 
for this regional cooperation. In looking for the ways to aim 
at a good result in regional cooperation, I must say that 
European Union has done a fantastic job in the last time. The 
dialogue in Belgrade is a real progress, and we want to support 
that.
    And this model of the European Union is very strong, also, 
for Serbia. That is the first point. The second point is 
minority protection. We will try to work a lot in that sense, 
and also, linked with reconciliation, the issue of missing 
persons as far as--is of utmost importance, and we would like 
to progress along that way, because we think that if we can 
use--seize the opportunity of this consecutive chairmanship for 
having real progress in the frame of the reconciliation, then 
we will have done a very good job, I think.
    And I told you that before as it was not official, but I 
say it now once more. And there is also maybe for Serbian 
presidency, an interest to show, during this year of 
chairmanship, this capacity to be a motor for reconciliation. 
It will be difficult, but the interest of having a successful 
presidency is big, and can be a good advantage if we see this--
those things with a constructive manner.
    Mr. Cardin. Thank you. We've been working on the tolerance 
agenda for a long time, and significant progress has been made. 
Best practices have been identified on dealing with anti-
Semitism, on dealing with anti-Muslim activities and dealing 
with xenophobia. We have had conferences that have looked at 
best practices. As Chairman Smith pointed in his opening 
comments, yes, we're open for new ideas, but it's now about 
accountability and following through on commitments that have 
been made where we show leadership.
    In recent years, there has been a disturbing trend of 
increased activities in bigotry. How do you see your 
chairmanship focusing on how we can advance the human rights 
agenda--the tolerance agenda, which is--to me, is what OSCE is 
best known for internationally? How do you see your year 
initiating and following through on a better understanding of 
all people of the OSCE regions?
    Mr. Burkhalter. I think this is, above all, work that we 
have to move on the ground, and therefore, the special 
representative on tolerance and nondiscrimination are very 
important to us. We have already met them, and we want to build 
on their job. I think you have also invited them for coming in 
front of the Commission and discussing with you. I would 
suggest that you wait some months before having this 
discussion, because two of them are new, and they can build on 
their experience this year for making a review and a report to 
you of their activities on the ground. But we will work above 
all with them direct on the ground.
    Mr. Cardin. Thank you. And I appreciate your response to my 
letter in that regard for the three representatives as we look 
forward to having them before the Commission.
    Mr. Burkhalter. You're welcome.
    Mr. Cardin. I just want to highlight one area that we have 
made a high priority on our Commission, and that deals with 
transparency on corruption. We are strong believers in the 
transparency initiative on extractive industries, and we have 
passed legislation requiring our extractive industry companies 
to make certain disclosures on the exchange. And Europe has 
followed suit with certain legislation. I just really would 
urge your chairmanship to expand upon the need for transparency 
with companies that do business in countries where it is 
questionable whether the governmental revenues are ending up 
for public purpose or for funding corruption. I think OSCE can 
play a major role here. I'm going to urge you to make that a 
priority of your chairmanship.
    Mr. Burkhalter. I share this point of view, and we have to 
be very concerned and very active at the same time about 
everything which is linked to corruption, and we have to fight 
against everything which is linked to corruption. And it is 
also not only the opinion of this chairmanship in office but 
also for my country.
    Mr. Cardin. I'd like to make two other observations. Then 
I'm going to turn the gavel over to Chairman Smith. We have 
votes starting at 11:15 on the floor of the United States 
Senate, so I'm going to have to leave during Chairman Smith's 
questioning, but I want to make two other observations.
    First, thank you for your comments in regards to the 
natural disaster in our states. It was a devastation, 
particularly New Jersey, but Maryland got hit very hard on the 
eastern shore. And these are now the new norms, these types of 
extreme weather conditions. And we can argue about the science 
as to--I don't think we can argue about the science. We can 
argue about the causes. We're all but set to take steps in 
order to deal with the--with carbon emissions. But one thing we 
need to have--I don't think there's any debate--is we have to 
deal with adaptation. We've got to deal with the realities of 
the current circumstances and how we respond to keep people 
safe.
    And I think OSCE can play a very important role, and I was 
pleased to see that as part of your priorities for your 
chairmanship. And I can tell you, we have a group in the United 
States Senate that meets weekly on this subject, so we'd be 
glad to try to help provide support for your agenda in dealing 
with these natural disasters and how we can be better prepared 
to deal with it. We also think we need to deal with climate and 
OSCE is dealing with the climate issues as well.
    You mentioned your role in Asia, and I just really want to 
underscore one other point, if I might, and that is when 
President Park was here from the Republic of Korea she pointed 
to an OSCE-type process for Northeast Asia as a way of having 
dialogue between countries that have had a difficult past. Two 
of America's closest allies are the Republic of Korea and 
Japan, yet the relationship between Japan and the Republic of 
Korea is not as good as it needs to be. And of course China 
represents a unique challenge in that part of the world, and 
North Korea is a real danger to regional and global security.
    The OSCE process could very well help them deal with better 
dialogue among themselves, and in talking with the governments 
of China, Korea and Japan, they all agreed. I mention that to 
you because I think your role in Asia being so strong, during 
your chairmanship you might be able to expand our partners in 
some way to take advantage of the principles of OSCE for a more 
stable Asia. And I applaud you for your activism globally as 
well as within the OSCE direct regions.
    With that, I'm going to turn the gavel over to Chairman 
Smith. And once again, thank you very much not just for being 
here but for your willingness to take on this responsibility 
during a critically important time, not only again for Europe 
and Asia but also I think globally the work that you do will 
have great consequences. And we clearly want to be your partner 
and do everything we can to help.
    Mr. Burkhalter. Thank you very much.
    Mr. Smith. I want to thank the chair again for this 
important hearing. And you did provide, Mr. President, very 
comprehensive testimony and the answer to a number of the 
questions that I know I and other Commissioners had, but I do 
have a few additional, if I could pose them to you.
    You know, back in 2002, at a hearing of our Commission, I--
joined by Senator Voinovich and of course Chairman Cardin and 
others--recommended that a high-level OSCE meeting occur on 
combating anti-Semitism. Ambassador Minikes, like Ambassador 
Baer, was in the audience. He called down to the White House--
because we had already had, in the OSCE PA, a number of what we 
called sidebar events where we focused on combating anti-
Semitism, and there was no doubt there was a rising ever-
escalating problem in our own countries, including the United 
States, with combating anti-Semitism. Ambassador Minikes got a 
very strong thumbs-up from the Bush administration, and 
immediately there was a mobilization to make it happen.
    And of course we first had the Vienna conference and then 
the watershed conference in Berlin in 2004. I remember sitting 
at that. I was the co-lead for the delegation. At that and 
others we had very high-level people, including Ed Koch, the 
former mayor of New York, Colin Powell, and many others at 
these different conferences bringing the gravitas of some of 
our top people in the diplomatic community and the political 
community, to bring that sharp focus on combating anti-
Semitism. And of course countries throughout all of Europe did 
the exact same thing.
    A very fine listing of recommendations was made. We in the 
OSCE PA constantly harkened back to the Berlin recommendations 
as to how well are we doing. You know, what is ODIHR getting in 
terms of monitoring? And of course Rabbi Baker does a wonderful 
job going country to country to hold countries to account. He 
does it in a very, very disarming way, straightforward but very 
effectively.
    My question would be about a commemorative event, which I 
think is eminently doable. I know you're looking at it and I 
certainly hope, you know, under your chairmanship perhaps in 
July, maybe after we all meet in Baku, at the end of that when 
we're out of session and both House and Senate members are free 
to travel--we can't travel when we have votes. It's just our--
our rules and regulations, at least on the House side.
    You know, if it happens without us, that's fine, but we'd 
love to be there. But if you could give every consideration to 
that kind of commemorative event to really bring a great deal 
of, OK, 10 years ago, watershed event; how well or poorly have 
we done? What remains to be done to combat this millennium-long 
insidious hatred towards Jewish people and towards Jews?
    Mr. Burkhalter. Maybe just two or three comments.
    First of all, we had, last year in Tirana an event--a high-
level event about tolerance and nondiscrimination, and we would 
welcome this year another event, but it's not yet in the 
agenda. We have to work on it and find a good solution, but it 
will be important that it attracts a high level of 
participation and not an event more without any--any great 
results. It is important to organize that and to find a 
solution logistically and financially, which is not the case 
until now--up to now.
    Mr. Smith. Well, I know Ambassador Baer is very supportive 
of it, just like Ambassador Minikes was 11 years ago, or 12 
years ago in 2002. So whatever could be done, it would be 
greatly appreciated and would move that ball forward. It is 
getting worse, just like the intolerance towards Christians, 
which is now getting onto a lot of people's radar as an 
escalating evil. Well, anti-Semitism is certainly. So I thank 
you for your willingness to really take a good, hard look at 
that.
    Let me ask you--obviously you have been appointed as the 
special rep on combating racism, xenophobia and discrimination, 
also focusing on tolerance and discrimination against 
Christians and other religions. A couple of questions in that 
regard.
    Intolerance and discrimination against Christians is a 
phenomenon that is recognized by the OSCE, and it is on the 
increase in Europe and even in the United States. The OSCE held 
an expert roundtable on intolerance and discrimination against 
Christians in Vienna on March 4th, 2009, and the Parliamentary 
Assembly adopted a resolution on combating intolerance and 
discrimination against Christians at the OSCE PA in Belgrade in 
July of 2011.
    The OSCE PA decided to intensify efforts to monitor 
research and publicize the need to fight against intolerance 
and discrimination and intensify consultation and cooperation 
with the personal rep of the chair in office on a national and 
international level. Let me ask you, if I could, a couple of 
questions with regards to that.
    I know that further action has been taken by the personal 
rep, for example, convening an expert roundtable on intolerance 
and discrimination against Christians in Vienna in 2014, five 
years after the first meeting. Can you tell us how his efforts 
might be enhanced by your chairmanship?
    Secondly, can the OSCE produce guidelines in parental 
rights and education? Under the Spanish chairmanship in 2007, 
the OSCE produced the Toledo Guiding Principles on Teaching 
about Religions and Belief in Public Schools. However, further 
guidelines are needed to emphasize the rights of parents in the 
field of education. Parental rights are under attack in an 
unprecedented way among several OSCE-participating states.
    In a growing trend, parents are being given less and less 
say in how they can educate their children, while at the same 
time, state education has become increasingly more radicalized.
    In Germany, for example, 14 Christian parents were 
imprisoned, some for more than 40 days, and most on multiple 
occasions, simply for opting out that their 9- and 10-year-
olds--children from two days of mandatory sex education 
classes. One of the hallmarks of American education is that 
there is an opt-out capability. If that's what parents want, 
that's what parents can do. In Germany, many of these parents 
have gone to jail.
    Also in Germany, a 15-year-old girl was placed in a mental 
institution for wishing to be home-educated. And we know that 
issue, you know, home education, home schooling is a trending 
issue here in a positive way. It is increasingly being 
criminalized in the OSCE space, particularly in places like 
Germany.
    There was also a case where in Sweden, a 7-year-old boy was 
taken off a plane bound for India by police and social services 
simply because he was home-educated. Now, I've been reading 
these cases and becoming alarmed--not just concerned, but 
alarmed about this trend. And it certainly is antithetical to 
any concept of freedom and parental rights, and I would hope, 
you know, you would take a good, strong look at this, if you 
would.
    And finally, follow-up initiatives being planned for the 
publication of the ODIHR guidelines on the recognition of 
religious or belief communities. Where is the status of that?
    Mr. Burkhalter. Thank you very much, Mr. Smith, for this 
very interesting question. They are also very specific, and I 
would give the floor to my alternate for giving a complete 
answer to these interesting questions, Mrs. Ambassador Grau, 
chief of the task force, OSCE.

 HEIDI GRAU, AMBASSADOR AND HEAD OF THE OSCE CHAIRMANSHIP TASK 
       FORCE, SWISS FEDERAL DEPARTMENT OF FOREIGN AFFAIRS

    Mrs. Grau. Mr. Co-Chair, I'm happy to react to some aspects 
of your question. I'm not going into all the details. What we 
would try to do or to achieve this year--and this is something 
that could really have a direct influence on the quality of the 
work of all the three tolerance representatives, including the 
one that is responsible for Christians--is what we call the 
institutional setup. Our feeling is that these three 
representatives do not yet have the full support for the work 
that they would need coming from ODIHR side. I think it is 
absolutely essential that we manage to upgrade, improve the 
support structures that they should have for the organization 
of their traveling, but also on substance, keeping records, 
support them in each and every manner. And we are working on 
that. This is hopefully making progress this year still. It's 
very much also linked to ODIHR, the support that should come 
from ODIHR to these representatives.
    Again, maybe also on the country visits, that is very 
important. In that regard, what we would like to have this year 
is make it possible that the tolerance representatives will get 
invitation of the three countries they are coming from. So the 
U.S. already has issued an invitation, and we are very 
appreciative of that. What we would like to see is also an 
invitation coming from Turkey, the--kind of the host country of 
one of the representatives, and then a third invitation 
hopefully coming from Russia. And we are working on that. This 
is also in a way a political decision that the countries have 
to make. But I think that would greatly advance the work and 
also the attention to the work of these representatives.
    Thank you.
    Mr. Smith. Thank you. And if you could get back with some 
additional answers to the very specific questions on home 
schooling and children whose parents opt them out and the 
criminalization of those decisions by parents--you know, in 
terms of children's rights, I actually wrote and gave, with 
U.S. Department of State clearance after I wrote it, the 
Bushes' position on the Convention on the Rights of the Child. 
I was a special rep to the U.N. at the time in New York. So I 
take a backseat to no one for recognition of the importance of 
children's rights and respect for children, but there's also a 
balance and countervailing issue of parental rights and the 
importance of who is the chief mentor for a child. And if 
governments increasingly usurp that and deem home schooling as 
a criminal offense, that is absolutely outrageous, and I think 
it cuts against a human rights perspective. So if you could get 
back specifically on some of those questions, I would--and the 
Commission would deeply appreciate it.
    Let me ask you, with regards to media freedom and press 
freedom, can the representative of the freedom on media revisit 
the issue of criminal libel and insult laws in Europe? As you 
know, in 2004 the representative on freedom in the media 
produced a document entitled ``Ending the Chilling Effect: 
Working to Repeal Criminal Libel and Insult Laws.'' We talked 
about it often in this Commission. We talked about it at the 
PA. It was an excellent blueprint for action. The publication 
followed a round table in Paris in 2003. Ten years on from this 
publication, very little progress has been made. Many countries 
in Europe continue to limit speech to an extraordinary degree. 
For example, again in Germany, committing an insult is a 
criminal offense with a one-year prison sentence. However, the 
United Kingdom, to its credit, repealed its insult law in 2013, 
demonstrating that progress can be made in this area.
    Also in the area of press freedom, many of us are really, 
really concerned about a deterioration of press freedom 
throughout the country and throughout the world. Reporters 
Without Borders, a group that I highly esteem and have had 
testify at many of my hearings on the Foreign Affairs Human 
Rights--Subcommittee on Human Rights that I chair, have come 
out with their rankings, and I was shocked and dismayed and 
disappointed that the United States now is 46 on their index. 
At 44 is Papua New Guinea; 45 is Romania; 46, United States of 
America; 47, Haiti; 48, Niger, just to give it some kind of 
context. So there is a concern that journalists are 
increasingly being subjected to censorship, to prior restraint 
out of fear of some kind of action being taken against them. 
And again, these libel laws, these--the insult laws that, 
again, Germany still backs have an absolute chilling effect on 
a robust inquiry and the ability to ask the tough questions of 
politicians and all others.
    So could there be a follow-up on the 2003 effort, you know, 
a reissue, a more robust effort to ensuring freedom of the 
press?
    Mr. Burkhalter. We are fully aware about the importance of 
freedom of media. I can just also add that in the very actual 
current issue of Ukraine, the special representative of freedom 
of media plans a country visit in the next weeks, and also at 
the same time, there should be also a visit of the high 
Commissioner on the minority protections.
    About freedom of expression, we will work very closely 
during our whole year of presidency with the special 
representative of freedom of media. She made a very good job, 
and she will make in the future also a very good job, we are 
sure of it. And we have also supplementary human dimension 
meeting on the freedom of expression, which will take place in 
Vienna during the month of July. Then we have already a series 
of events or of activities in that case and in that field.
    Mr. Smith. Thank you. If I could, just a couple final 
questions, Mr. President. And thank you for, again, your 
extensive testimony and answers.
    With regards to the Ukraine, what--I know you spoke about 
it, and I appreciate that, but just a--some final insights or 
comments as to what role do you think the OSCE can play, 
particularly in bringing Russia into an effort to ensure that 
the bloodshed does not re-erupt? We all know that this isn't 
over by far. Even though it looks like the immediate problems 
in Kiev have abated, there are flare-ups that are going to 
occur in all kinds of areas. And it could happen with 
provocation, obviously, from Moscow.
    Are you planning any kind of special initiatives, like a 
visit to the Crimea, for example, which I think, just like 
Abkhazia and South Ossetia, when pushed terrible react, but 
that's what the Russians did. Who knows what they might do with 
regards to the Crimea. And what would be your recommendation to 
us, the United States of America, Congress and the president, 
as to what we should be doing vis-a-vis Ukraine?
    Mr. Burkhalter. Beside everything I already said about the 
Ukraine, you're right that a special initiative, which shall be 
good organized, in the direction of Crimea is--are very 
important. We plan to have a visit of our special envoy, 
Ambassador Tim Guldimann. And at the same time, it will be very 
important to have what I said before, this visit of the high 
Commissioner on national minorities.
    Once more, I would like to underline the fact that clear 
U.S. support to the OSCE actions--the proposal of the 
international contact group and the decision of sending a 
special envoy and the need assessment mission--during these 
days would be very important for us and for the OSCE to be 
efficient and to give real assistance to this aim we all have, 
finding a political-inclusive solution.
    Mr. Smith. Just let me ask you, if I could, on trafficking. 
Last year we did ask--I asked the chair in office if they would 
make trafficking a serious part of their agenda. They did. The 
chair in office who sat where you sat--sit now, who has 
recently been, obviously, sacked, actually had a huge 
conference in June in Kiev. And it was an excellent conference.
    And one of the focuses was the training of flight 
attendants, buses, trains--you know, the people involved with 
transportation because every trafficking victim, or almost 
every one of them, are transported at some time in their 
enslavement. And eyes and ears are on every aircraft, if 
they're properly trained, situationally aware. Tell the pilot 
and the pilot then tells law enforcement, who then separate.
    And there were dozens of examples given in testimony at a 
hearing that I had again just a few weeks ago. Delta Airlines 
is doing it. I'm sorry to say some of our other airlines are 
not--like American, which is--you know, we've asked them 
repeatedly, we asked them to be at the hearing. And for no 
cost--or absolutely a de minimis amount of money they can do 
this kind of training.
    And what happened in Ukraine was that there was a training 
of the flight attendants. And the enthusiasm with which they 
embraced this--some many, as you know, of the Ukrainian women 
are trafficked into the Middle East, where they think they're 
going to be waitresses and they are put into brothels and they 
are horribly exploited.
    Would you consider making such a continuance effort of that 
training? We passed, as Spence remembers, a parliamentary 
assembly recommendation. It is in the addendum which came, we 
think, in part out of our request. And thank you, Ambassador 
Baer, for fighting so hard for that in December.
    This is a low-cost, highly efficacious way of training 
those eyes and ears to say: That doesn't look right. They have 
all kinds of ways of doing it in a nonconfrontational way. And 
they will save lives. And it'll also have a potential chilling 
effect on how the bad guys move these women.
    One of the great takeaways from the recent Super Bowl, was 
that because there was so much preventive aspects done, 
particularly in the training of hospital employees and the 
trains--Amtrak, for example, and the top cop for Amtrak 
testified at my hearing just a few weeks ago--they said: We're 
serious about this. If they're not a plane, they could be on a 
train, the buses are still laggards so they need to be involved 
in this.
    But we can shut these people down and make it harder and 
harder and harder for these nefarious enterprises to do the 
horrible things they do. So if you would seriously consider--
you know, obviously it's an addendum item that was passed, but 
make it a priority, please. I know you care about it, but I 
know you have so many balls in the air. You'll save lives by 
doing it.
    I mean, Swiss Air could do it. Obviously we have Delta, but 
our others have not done it and that's shocking. Homeland 
Security has put together an excellent packet called blue 
lightning, lays out best practices. Nancy Rivard. We've invited 
her to other parts of the world. She's gone. She was in Kiev.
    And she says: Look, we saw little kids coming out of 
Haiti--it was a pedophile ring. And 80 kids, according to her 
estimations, were sold into the cruelest exploitation 
imaginable. They broke that up. Law enforcement got involved. 
And they shut that thing down like it was a tourniquet. And of 
course, they held the bad guys to account. She told another 
example of a Moscow to Chicago flight that was--you know, there 
were all these young, Russian girls, time and time again, five, 
six of them per flight, with some guy. And they said there's 
something wrong.
    In the past they would have went, oh, not my business, look 
away, look askance. And finally they got involved because they 
were trained. And they broke up that ring because when they got 
onto a bus after being offloaded in Chicago, that was the last 
anybody heard of those girls who thought they were going to be 
waitresses or even models somewhere, or au pairs. So it's a 
low-cost, highly efficacious way of saving women's lives, if 
you could consider that.
    Mr. Burkhalter: Thank you, Mr. Co-Chairman, for your 
enthusiasm and for your engagement, commitment in fighting 
human trafficking. As I said before, it is a--to recognize what 
you have personally done in this field. We have decided, 
generally speaking, to let and to do so that the issue of human 
trafficking remains very clearly at the top of the agenda. We 
have already during these first months of presidency and in 
collaboration with the Council of Europe demonstrated it was 
possible to mobilize not only one organization but a series of 
them. And I'm sure that we can make some progress during the 
whole year in this important field. For the details and 
modalities, I would like to give the floor to Mrs. Grau.
    Mrs. Grau. Yeah, thank you, Mr. Co-Chair. And I would like 
to join my president in praising your engagement for this 
really important issue. What I think is also important to keep 
in mind that this is an issue that all the participating states 
of the OSCE are in full agreement that this has to be countered 
and we have to fight against it. So I think it's quite unique 
that all the countries agree on the importance of a specific 
issue and show commitment on that.
    What is important is also the work of the field missions in 
that regard. We try to support them wherever possible in very 
practical examples of fighting against trafficking. The example 
that you just mentioned I think is a very valid one, a very 
important one. There is another example of joint work, of 
cooperation between Switzerland and the U.S. in the OSCE 
framework, where we fight together against domestic servitude 
in diplomatic households.
    This is, I think, for your country with a big diplomatic 
community here in Washington but also as well in New York, as 
well as for our country with Geneva, the international Geneva, 
of course, a very important topic. And that is an initiative 
that we would like to continue this year. This month, still, 
there should be a workshop, a training, in Brussels. But there 
are many other ways how we can join forces and support this 
important cause. And once again, I would like to thank you for 
your engagement.
    Mr. Smith. Thank you so very much. And thank you both. Was 
there anything else you would like to add before we conclude? 
Thank you for your time as well, because I know you're a very 
busy man.
    The hearing's adjourned and we'll look forward to working 
with you going forward.
                          A P P E N D I C E S

=======================================================================

                          Prepared Statements

                              ----------                              


      Prepared Statement of Hon. Christopher Smith, Co-Chairman, 
            Commission on Security and Cooperation in Europe

    I would like to warmly welcome His Excellency President Didier 
Burkhalter. We all look forward to hearing your plans for your 2014 
chairmanship of the OSCE.
    Ukraine is at the top of the OSCE's agenda today--and there the 
task is enormous. The situation remains very fragile, and the Crimea 
could become a hotspot. I was in the Republic of Georgia a week after 
the Russians rolled into the Abkhaz and South Ossetian regions under a 
situation in many ways similar--there are many who want to be aligned 
with Russia. And I'm very concerned that the U.S. and Europe need to 
work closely with the Russians in supporting the Ukrainians in 
implementing the six-point agreement, with the goal that the country 
matriculate into a more robust democracy.
    Ukraine is a sovereign country--but at the same time Russia clearly 
means to play a role in the coming months, and to protect Ukraine's 
sovereignty and matriculate it into a more robust democracy we will 
have to engage meaningfully and respectfully with Russia as well.
    Our government has not done this well in recent years--I hope the 
OSCE will do better. It seems that the OSCE is a place where all 
parties can meet to support the six-point agreement. The OSCE, as a 
consensus organization founded to ensure respect for borders through a 
concept of security that embraces human rights and the rule of law, 
must be able to play a role here.
    Reconciliation should be at the top of its agenda--bringing parties 
together, facilitating them to set aside differences and work 
together--for the good of their country and to mitigate bloodshed.
    I believe this is a test for the organization. So I welcome your 
appointment of a Personal Envoy on Ukraine and look forward to 
discussing the role you envision for the envoy and the organization, 
including observing the May election.
    It will be important as well to vigorously implement the Addendum 
to the OSCE Action Plan to Combat Trafficking in Human Beings--which 
was adopted at the Kyiv Ministerial in December.
    The addendum includes issues I raised in supplementary items that 
were passed by the OSCE Parliamentary Assembly. These include: calling 
on corporations to ensure that their supply chains do not include 
trafficked labor; focusing anti-trafficking efforts on vulnerable 
groups; increasing cooperation among law enforcement in different 
countries to prevent ``sex tourism'' involving the trafficking of 
minors; and calling for anti-trafficking training for the 
transportation and hospitality industries.
    Anti-trafficking training in the transportation industry should be 
a priority in every country--including the U.S. Just this month I 
chaired a hearing at my Foreign Affairs Subcommittee to evaluate how 
the United States is doing on this training. In addition, as the 
Parliamentary Assembly's Special Representative on Human Trafficking, I 
am currently conducting a survey of OSCE countries' implementation of 
antitrafficking training, through parliamentarians active in the PA.
    So I look forward to discussing your plans to promote 
implementation of the Addendum, and to working with you on this.
    Another issue of consistent concern for this Commission is anti-
Semitism in the OSCE region. This year marks the tenth anniversary of 
the Berlin High-Level Conference on Combating Anti-Semitism--a 
milestone for the organization in recognizing the seriousness of the 
problem in Europe, which was witnessing a resurgence of anti-Semitic 
incidents and attacks. I and other members of this Commission took part 
in that meeting as part of the U.S. delegation, and our Commission 
worked hard--including through the OSCE Parliamentary Assembly--to put 
the issue on the OSCE agenda.
    As some of us who were there recall, that conference helped 
galvanize attention and led to some of the first government 
commitments, presented in the OSCE's Berlin Declaration that was issued 
at its close. It also resulted in the creation of ODIHR's department on 
tolerance and non-discrimination with its education programs and police 
training for combating hate crimes, among other initiatives.
    Despite these important contributions the problem of anti-Semitism 
is still very much with us. This past November the EU Agency for 
Fundamental Rights (FRA) released the findings of a survey it conducted 
among 6,000 Jews in eight EU countries. Three-quarters of those polled 
said anti-Semitism remained a serious problem. Nearly 25 percent said 
they avoided attending Jewish events or visiting Jewish sites for fear 
of encountering it. In some countries such as Hungary, France and 
Belgium, well over forty percent said they had considered emigration 
because of it. Clearly there is still more to be done.
    We think it would be quite appropriate to mark the tenth 
anniversary of the Berlin Conference with a high level event that could 
both look back at the achievements and contributions that OSCE has made 
in fighting anti-Semitism and intolerance and look ahead at the 
challenges that are still very much present. We understand that Germany 
would again be prepared to host such an event in Berlin. And you should 
know you will have the strong support of this Commission in undertaking 
it. But ultimately this must be spearheaded by the Chairmanship-in-
Office, so we hope you will take the lead in making this a reality.
    The last thing I'd like to mention is freedom of religion--this 
warrants renewed OSCE attention. Intolerance and discrimination against 
Christians is a phenomenon that is recognized by the OSCE and is on the 
increase in Europe--despite occasional roundtables and resolutions, the 
organization has not delivered much intensity on this issue. I hope you 
will be able to set us an example on this--perhaps by convening a new 
Expert Roundtable on Intolerance and Discrimination against Christians 
in Vienna in 2014.
    President Burkhalter, I look forward to working with you and your 
Swiss chairmanship team this year.
    Prepared Statement of Didier Burkhalter, President of the Swiss 
        Confederation, Foreign Minister and Chairman of the OSCE

    Thank you for the invitation to speak before your Commission. It is 
an honour and pleasure for me to address the issue of security--and of 
European security in particular--in front of members of the American 
Congress. Over the past 100 years, the United States has played a vital 
role in defending the values of liberty and security in Europe--and I 
wish to start by acknowledging this role. The dramatic developments in 
Ukraine in recent weeks have been a sobering reminder that security in 
Europe cannot be taken for granted. These developments have also 
revealed the need to foster dialogue, rebuild trust, reaffirm shared 
norms, and consolidate bridges across the Euro-Atlantic and Eurasian 
region. It is my firm conviction that the OSCE has a major role to play 
in this regard.
    The Swiss Chairmanship wishes to acknowledge the important role the 
Helsinki Commission plays within the OSCE. We also appreciate the close 
cooperation with the US Department of State on a wide range of OSCE 
issues. The United States is a crucial participant in the OSCE. It is 
the biggest contributor to its budget and in many ways indispensable to 
move the OSCE forward.
    Switzerland has agreed to take the helm of the OSCE because the 
promotion of stability in Europe and beyond is a priority of our 
foreign policy. We also believe that we have something to offer as a 
neutral country with a tradition of good offices and mediation. A third 
reason is that the United States and a number of other partner 
countries asked us to take on this role. I therefore very much count on 
your valuable support. I have listened to your introductory remarks 
very carefully and hope that we can discuss the issues raised in some 
detail today. But before we engage in this discussion, let me make some 
general remarks about the OSCE and the priorities of the Swiss 
Chairmanship.
    The fact that Switzerland is the first country to chair the OSCE 
for the second time (after 1996) indicates that we attach great 
importance to this organization. We value the OSCE as a forum for 
dialogue, a platform to generate and assist the implementation of 
common norms, and a field-based organization. We also acknowledge that 
the OSCE performs its many important tasks with a surprisingly low 
budget. Its annual budget is not much higher than the transfer fees 
paid for one top-class soccer player.
    That said, the OSCE is currently not in a position to tap its full 
potential. The fact that its membership spans three continents is a key 
asset, but it is also a major challenge for decision-making. This is 
why as Chairperson-in-Office, I encourage all participating States to 
approach the OSCE in a spirit of cooperation and compromise.
    If we want the OSCE to move forward, we need to be both principled 
and pragmatic. ``Principled'' in the sense that we should all stand up 
for our shared values and our OSCE commitments. ``Pragmatic'', because 
no participating State will be able to see its objectives in the OSCE 
realized if it ignores the priorities and needs of others. In the mid-
1970s, the OSCE was a success because participants made compromises and 
trade-offs across the three ``baskets''. Today, I strongly believe that 
if all participating States engage with a balanced approach among the 
OSCE's three dimensions, we will find much common ground.
    The OSCE's comprehensive approach to security is a key asset of the 
organization and corresponds to today's security needs. Making full use 
of this holistic model will make it possible to increase the level of 
security not just of states but also of citizens. As you are well aware 
as Senators and Members of Congress, our citizens are no longer 
primarily concerned about traditional military threats. The OSCE's 
security approach is very much consistent with their security 
perceptions.
    This is all the more important because the future relevance of the 
OSCE will much depend on its ability to produce tangible results for 
the individuals and communities of its participating States. Good 
politics, after all, is at the service of the people. This is why the 
leitmotiv of the Swiss Chairmanship is to create a security community 
for the benefit of everyone.
    Calling for pragmatism does not mean that we should shy away from 
criticism in the OSCE. Recalling the OSCE's principles is more vital 
today than ever, especially when adherence to these principles is 
uncertain. I therefore encourage participating States to engage with 
each other in constructive ways to pave the way for shared solutions 
rather than alienation.
    With its consensus-oriented political system and linguistic 
diversity, Switzerland is a kind of mini-OSCE. Based on our own 
experience, we seek to revitalize the OSCE's culture of dialogue by 
calling on all participating States to take a step towards one another. 
We encourage all States to make gestures of good will to rebuild trust 
and allow for progress within the OSCE.
    Ladies and gentlemen, Since assuming the Chairmanship of the OSCE 
at the beginning of 2014, my agenda has been dominated by the political 
crisis and recent escalation of violence in Ukraine. During the past 
weeks, I have repeatedly called on all sides to refrain from violence, 
resolve the crisis through dialogue and political means, and respect 
human rights. In a series of meetings, I have discussed options for 
OSCE assistance with the then-Ukrainian government as well as with 
members of the opposition.
    The agreement reached on February 21 marked an important step 
towards ending the violence, and paved the way for a political solution 
of the crisis. I congratulate everyone involved who made this 
breakthrough possible, including the Polish, German and French Foreign 
Ministers and the Special Envoy of the Russian Federation.
    With the appointment of an interim president by the Parliament, 
Ukraine has now entered a new phase of transition. Formidable 
challenges lie ahead. We should unite in our efforts to support Ukraine 
in these difficult times. A stable, democratic and united Ukraine is in 
the interest of us all.
    Against this background, I proposed yesterday during my briefing at 
the UN Security Council to establish an International Contact Group on 
Ukraine. Ukraine should of course play a prominent role in the group 
and all international key actors should be included. We are currently 
consulting this idea with all actors concerned. The main task of the 
proposed Contact Group would be to support Ukraine in its transition 
period. The Contact Group would serve as a platform for coordination 
and sharing information on international assistance and project 
activities in Ukraine. The OSCE, through its impartiality and 
inclusivity, has the necessary attributes to host and moderate this 
group. Ukraine and all international actors involved in this crisis are 
in fact participating States of the OSCE.
    I also announced yesterday my decision to appoint Ambassador Tim 
Guldimann as my Personal Envoy on Ukraine. He will coordinate all 
ongoing and planned activities of the OSCE in Ukraine on behalf of the 
Chairmanship. He will rapidly take up consultations with all sides and 
will cooperate closely with international partners.
    A small OSCE core team has been sent to Ukraine to conduct a needs-
assessment mission. There is an urgent need to rebuild trust among all 
parties involved. As I underlined yesterday at the UN, I encourage the 
new leaders of Ukraine to invite ODIHR to send a Human Rights 
Assessment Mission to the country to establish the facts and 
circumstances of the incidents that took place in Ukraine. The Human 
Rights Assessment Mission would recommend measures to deal with serious 
violations of human rights allegedly committed during this crisis. Its 
findings would be presented in a report and would help advance national 
reconciliation in Ukraine.
    Presidential elections will be a crucial moment in the current 
transition period. We expect the Ukrainian authorities to issue an 
early invitation for an ODIHR election observation mission. In view of 
the rapidly changing developments, we are also ready to review and 
further specify the activities of the OSCE's Project Coordinator's 
Office in Kiev. We are currently witnessing a phase of de-escalation in 
Ukraine. It is essential to support a fair and inclusive process of 
transition which does not marginalize any part of Ukraine or any 
community. Ukraine deserves full international attention and support. I 
am convinced that the OSCE has the necessary tools to assist Ukraine in 
this difficult phase.
    Ladies and gentlemen, Afghanistan--one of the OSCE's six Asian 
partners--is another hotspot where the OSCE can play a valuable role. 
While the international community develops its strategic vision for 
Afghanistan after 2014, the OSCE remains a good platform for practical, 
forward-looking regional co-operation and dialogue among all 
stakeholders. We continue to work closely with other international 
actors to ensure stability in Afghanistan and the wider region.
    OSCE activities worth mentioning in this context are police 
training, borders and customs training, and counter narcotics. Our 
Central Asian field offices, the OSCE Academy in Bishkek, Kyrgyzstan, 
and the Border Management Staff College in Dushanbe, Tajikistan, are 
building local capacities and expert networks linking Afghanistan and 
the Central Asian states.
    We are also working towards establishing an OSCE Research Centre on 
Afghan-Central Asian issues. In addition, ODIHR will send an election 
support team to Afghanistan to assist with preparations for the Afghan 
elections this year. With Switzerland chairing the Asian Partners for 
Cooperation next year, we are eager to discuss ideas of applying 
elements of the OSCE's cooperative security model to East Asia. Against 
the background of unresolved territorial disputes, rapidly rising 
defense budgets and growing risks of political polarization, East Asia 
could well benefit from the OSCE's experience in creating confidence 
and common norms through dialogue and transparency.
    Following these general observations, I will now outline the 
priorities of the Swiss OSCE Chairmanship. We have set three overall 
objectives. We seek to contribute to fostering security and stability, 
improving people's lives, and strengthening the OSCE's capacity to act. 
In a nutshell, our mission is to enhance security, freedom, and 
responsibility. For each of our objectives, we have defined a number of 
priority areas. You have received a factsheet on these priorities. Let 
me just highlight a few points here. Fostering security and stability 
with regard to our first objective of fostering security and stability, 
the Western Balkans figure prominently on our agenda. My Special 
Representative for the Western Balkans, Ambassador Stoudmann, has been 
tasked with facilitating regional cooperation and reconciliation. I 
plan to visit this region in the coming months.
    The OSCE should play a supporting role in the implementation of the 
Belgrade-Pristina agreement. Indeed, the OSCE has recently facilitated 
local elections in northern Kosovo and will continue to monitor this 
year's electoral processes in South Eastern Europe. I am also planning 
to travel to the South Caucasus. My Special Representative for this 
region, Ambassador Gnadinger, is co-chairing the Geneva International 
Discussions on the conflict in Georgia. These discussions are a unique, 
albeit fragile, platform to tackle the security and humanitarian 
aspects of the conflict. It is our hope that they will one day evolve 
into a forum that lays the ground for a settlement of the conflict. 
Nagorno-Karabakh is one of the most dangerous conflicts in Europe. One 
of my first meetings as Chairperson-in-Office was with the three co-
chairs of the Minsk Group. I wish to emphasize at this point that both 
in Karabakh and in Georgia, United States involvement at the highest 
political level would be helpful for our efforts. I am convinced that 
the stalemate in these protracted conflicts can only be overcome with 
greater engagement and attention by international key players such as 
the United States. We very much appreciate the work of Ambassador 
Warlick, the US Co-Chair of the OSCE Minsk Group, and Deputy Assistant 
Secretary Eric Rubin, the US Representative in the Geneva Discussions.
    Conventional arms control and confidence- and security-building 
measures play a key role in joint efforts to strengthen military 
stability, transparency and predictability in the OSCE area. Yet while 
the need for conventional arms control remains undisputed, the Treaty 
on Conventional Armed Forces in Europe has reached an impasse. 
Conventional arms control in Europe can likely only be re-launched on 
the basis of a new conceptual approach. This will require many 
countries to modify long-held positions. We should also seek ways to 
ensure that unresolved territorial conflicts do not block progress on 
pan-regional arms control. All this will require initiative and 
leadership by the United States. The Swiss Chairmanship regards the 
OSCE as a useful marketplace for ideas on conventional arms control and 
is ready to facilitate conceptual discussions in this respect.
    As for our second objective of improving people's lives, the 
implementation of all existing commitments in the Human Dimension is a 
key priority for us. We have defined and prepared our activities in 
this area on the basis of our two years' experience as Chair of the 
Human Dimension Committee. We aim to strengthen the implementation of 
commitments in full cooperation with the participating States, OSCE 
structures, and civil society. Switzerland will host a chairmanship 
event on human rights defenders in Bern, Switzerland, in June. On this 
occasion, the director of ODIHR, Ambassador Lenarcic, will present 
guidelines prepared by ODIHR on the protection of human rights 
defenders. (I should add that I visited ODIHR at the end of January, 
and that recruiting a successor for Mr Lenarcic will be another major 
task in 2014).
    The Swiss Chairmanship will also put the issue of torture back on 
the agenda of the OSCE. We are planning an event on torture prevention 
in Vienna at the beginning of April. Cooperation between national 
mechanisms, NGOs, ombudspersons, international organizations, the UN 
and the OSCE will be at the centre of the discussions at this event. 
Another theme will be the fight against human trafficking. Hundreds of 
thousands of people, mainly women and children, are being forcefully 
trafficked in their own countries and across national borders. These 
victims are often sexually exploited or forced into slavery. This is a 
terrible crime. I wish to commend Co-Chair Smith for the three 
comprehensive bills you authored in the United States to combat 
trafficking and to help victims.
    A week ago, the Swiss OSCE Chairmanship--together with the Austrian 
Chairmanship of the Council of Europe--organized a Conference against 
trafficking in human beings. The goal was to discuss how legally 
binding standards, monitoring mechanisms, and political strategies can 
mutually reinforce each other and lead to effective action to counter 
trafficking in human beings. As for the priority of a more reliable 
management of natural disasters, this is very much in the interest of 
the security and safety of our citizens. Disasters can hit anywhere at 
any time. The United States knows from its own experience that the 
scale, frequency, and severity of disasters triggered by natural 
hazards will continue to grow at an accelerating pace.
    Senator Cardin, Congressman Smith: you witnessed with your own eyes 
the destructive force of tropical cyclone Sandy in October 2012. You 
visited the impacted areas on Maryland's Eastern Shore and New Jersey, 
where over 30 of your compatriots lost their lives and where 350,000 
housing units were damaged, causing economic losses of well over 30 
billion dollars. Switzerland considers that disaster risk reduction 
should be firmly embedded in the Sustainable Development Goals. Our aim 
must be to move from disaster response to disaster prevention and 
climate change mitigation. We will address this issue at the meetings 
of the 22nd OSCE Economic and Environmental Forum. In so doing, we seek 
to contribute to societies becoming resilient to climate change and 
disaster risk.
    There is also a strong link between the human and the politico-
military dimensions of the OSCE in combating transnational threats. For 
instance, this year we are tackling issues such as human rights in 
countering terrorism, kidnapping for ransom, and the return of foreign 
fighters. A major opportunity to discuss these issues will be the 
annual OSCE conference on counter-terrorism, which will take place in 
Interlaken, Switzerland. We are counting on the presence of American 
experts at the Interlaken Conference and on your continued support in 
tackling these issues. In the area of cyber threats, the Swiss 
Chairmanship will focus on the implementation of the initial set of 
OSCE confidence-building measures agreed last year. I would like to 
acknowledge the successful work of the US Chair of the Informal Working 
Group. The Swiss Chairmanship is grateful that the United States 
accepted to continue to chair this Working Group and will support its 
efforts to develop additional confidence-building measures. 
Strengthening the OSCE's Capacity to Act regarding our third objective 
of strengthening the OSCE's capacity to act, the ``Helsinki+40'' 
process is of particular importance. Adapting the OSCE to the security 
needs of the 21st century is both challenging and vital. This process 
is in itself an important confidence building measure as it helps 
address divergent security perspectives in a result-oriented manner. 
But it should be more than that. ``Helsinki+40'' is about defining the 
ways and means of the OSCE--and hence its future relevance. There are 
now a roadmap and eight coordinators in place to structure these 
discussions in Vienna. Again, participating States will need to show a 
degree of flexibility for this process to translate into meaningful 
results. I also believe that we need ministerial-level debates to get a 
solid idea of where the OSCE should be heading.
    Numerous issues are being addressed in the context of 
``Helsinki+40''. Let me mention here one issue where the Swiss 
Chairmanship would particularly appreciate US support. I am referring 
to the need to improve the effectiveness of OSCE field operations.
    These field operations have proven valuable in assisting host 
countries in implementing their commitments. But it is vital that we 
continuously evaluate such activities, with a view to maximizing their 
effectiveness and local acceptance. We are currently conceptualizing 
new types of field presences with a better balance of OSCE activities. 
US support for these discussions will help carry them forward.
    As for other means of rendering the OSCE more effective, I would 
argue that the model of consecutive chairmanships, as carried out by 
Switzerland and Serbia, has already proven its merit. Bern and Belgrade 
have developed joint work and implementation plans. We have also agreed 
that our Special Representatives will be reappointed by the end of this 
year. Consecutive chairmanships can provide the OSCE with more 
continuity and are a model worth considering for the future.
    Linked to the ``Helsinki+40'' debates is the Swiss priority of 
strengthening the OSCE's role in mediation. The peaceful settlement of 
disputes that was included in the Helsinki Final Act remains one of the 
core tasks of the OSCE today. This is why we are contributing to the 
mediation-support capacity that is currently being built in the OSCE 
Secretariat. The aim is to capture knowledge about mediation processes 
and make sure that OSCE mediators are supported with training and 
thematic expertise. In this regard, I wish to acknowledge the important 
assistance provided by the United States Institute of Peace and the 
Conflict Management Program at the Johns Hopkins School of Advanced 
International Studies.
    Ladies and Gentlemen, The Swiss Chairmanship attaches great 
importance to our final priority of enhancing involvement of civil 
society and in particular of young people. We firmly believe that 
offering a platform for a dialogue with civil society contributes to 
assisting OSCE institutions and participating States in implementing 
commitments. It also provides an opportunity for our governments to 
listen and respond to the needs of our citizens.
    Four regional workshops are being organized in four different 
regions of the OSCE in the coming months. The first workshop has 
recently taken place in Belgrade. The two topics identified by civil 
society as the most pressing issues were torture prevention and hate 
crime and hate speech, the latter with a particular focus on Roma and 
Sinti. It was an inspiring start to our workshop series--the next 
destinations being Austria, Tajikistan, and Georgia. The 
recommendations resulting from this process should feed into the final 
civil society conference that will be held in parallel to the 
Ministerial Council in Basel in December 2014.
    Finally, there is our ``Youth for Security and Cooperation in 
Europe'' project, which brings together 57 young people from all OSCE 
participating States. This project is particularly dear to me, as our 
shared responsibility as politicians is to shape a more prosperous, 
equitable and sustainable future for the generations to come. In the 
course of this year, our Youth Ambassadors will simulate a whole OSCE 
negotiation cycle. Last month they simulated a Permanent Council 
meeting in Vienna. I also invited three of these Youth Ambassadors to 
address the ``real'' Permanent Council that met in the Hofburg Palace 
in Vienna. In July, a Ministerial Council Meeting will be simulated in 
Belgrade.
    The purpose of these meetings is to negotiate a Youth Action Plan 
with recommendations for the OSCE and its participating States. The 
Youth Ambassadors will present their Action Plan at the Ministerial 
Council in Basel, which I hope will serve as an inspiration for the 
OSCE to work out its own Youth Action Plan.
    Chairman Cardin, Co-Chairman Smith, Ladies and Gentlemen, Let me 
conclude my statement by thanking the United States for its continued 
commitment to the OSCE. As an institution complementary to NATO, the 
OSCE constitutes America's second foothold in Europe. It is a bridge 
between the Euro-Atlantic and the Eurasian region. The stronger this 
bridge, the stronger our common security. Thank you for your attention 
and support. I look forward to your questions and comments.

                                 [all]


  

                                     
                 This is an official publication of the
                       Commission on Security and
                         Cooperation in Europe.

                 <SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

                This publication is intended to document
                developments and trends in participating
                States of the Organization for Security
                   and Cooperation in Europe (OSCE).

                 <SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

               All Commission publications may be freely
               reproduced, in any form, with appropriate
                   credit. The Commission encourages
                   the widest possible dissemination
                          of its publications.

                 <SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

                  http://www.csce.gov    @HelsinkiComm

                   The Commission's Web site provides
                  access to the latest press releases
                  and reports, as well as hearings and
              briefings. Using the Commission's electronic
                 subscription service, readers are able
                  to receive press releases, articles,
               and other materials by topic or countries
                        of particular interest.

                        Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
